  ANALYSES OF PARTICIPANTS’ EARNINGS
            FOR THREE KULICK
    YOUTH OPPORTUNITY PILOT SITES –
           A FOLLOWUP TO OUR
AUDIT FINDINGS FROM THE FIRST 18 MONTHS
     OF THE PROGRAMS’ OPERATIONS




                           Office of Inspector General
                           Office of Audit
                           Report No. 06-00-003-03-340
                           Date Issued: September 20, 2000
                                                      TABLE OF CONTENTS
                                                                                                                                           Page

Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Objectives, Scope, and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Followup Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

           1.         Participants’ Annual Earnings for the Followup Period Compared
                      to the Initial Audit Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

           2.         Changes in Earnings Capacity for Specific Participants . . . . . . . . . . . . . . . . . . . . . . 10

           3.         Earnings by Age at Enrollment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

           4.         Participants’ Attachment to the Labor Market . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13




                                                                         i
                     ABBREVIATIONS



DOL      U.S. Department of Labor
ETA      Employment and Training Administration

JTPA     Job Training Partnership Act

Kulick   Donald J. Kulick Youth Opportunities Demonstration
         Project

SDA      Service Delivery Area

WIA      Workforce Investment Act




                                 ii
                                      EXECUTIVE SUMMARY

On March 22, 2000, we issued final audit report number 06-00-002-03-340, “Audit Findings from
First 18 Months of the Three Kulick Youth Opportunity Pilot Sites Suggest Additional Innovation
Is Needed For Youth Training Undertaken With JTPA Demonstration Grant Funds.” That report
represented a snapshot in the early stages of these Youth Opportunity pilot sites that the Employment
and Training Administration (ETA) conceded was a learning process. One of our initial report findings
indicated the program should aim toward having a greater impact on earnings. ETA commented
on the experimental nature of these pilot grants and the lessons learned from them and indicated the
three sites included in our audit have improved since the period we examined.

Consequently, for the 105 participant sample included in our initial audit, we analyzed earnings for a
subsequent 12-month period (April 1, 1999, through March 31, 2000) to determine whether youths’
earnings increased or decreased in the year after our initial evaluation. We also performed separate
earnings analyses for calendar year 1999 for the entire 1,851 participant universe (as of September 30,
1998) for the three pilot grants.

The objective of this followup audit was to provide DOL management with additional independent
information regarding program results from these Kulick pilot demonstration grants. Recommendations
were made in the initial report. This audit is a results followup audit; consequently, this report does not
include recommendations but is for information purposes only.

Participants’ Earnings

Overall, approximately 70 percent of the participants had earnings in the followup period – 69 percent
for the sample; 71 percent for the universe – with an overall annual earnings increase for the
participant sample from $4,217 in the initial audit to $5,482 in the followup. For the participant
universe, average annual earnings were $5,982.

Tracking the earnings of the specific 105 sampled participants disclosed: 34 percent of the
participants’ earnings showed no significant increase or decrease between the two periods; 30
percent of the participants’ earnings decreased; and 36 percent of the participants’ earnings
increased.

Participants’ Attachment to the Labor Market

As a measure of program accomplishment, we evaluated

        K       continuity of employment measured by (1) sustained employment from quarter to
                quarter, (2) the number of quarters participants had earnings in the 4-quarter
                evaluation period, and (3) the number of different employers participants had in the 4-
                quarter evaluation period; and
        K       participants’ earnings during the last quarter of our evaluation periods.

While approximately half of the participants had no earnings in the last quarter of our evaluation period
(49 percent, initial audit sample; 55 percent, followup audit sample; 46 percent, universe), of the 105
participant sample who did have earnings in the last quarter evaluated, those with quarterly earnings
over $2,000 increased from 28 percent from the initial audit sample to 49 percent for the followup audit
sample. Also, 52 percent of those in the universe with earnings in the last quarter evaluated had
quarterly earnings over $2,000.

Also, for the followup audit period:

        K       Of the 72 participants in the sample with earnings, 82 percent had 3 or fewer
                employers, and 68 percent had earnings in more than 2 quarters.

        K       Of the 1,310 participants in the participant universe with earnings, 87 percent had 3 or
                fewer employers, and 61 percent had earnings in more than 2 quarters.

While the earnings outcomes appear to be improving, grantees’ services still need to be improved to
lead these youths to self-sufficiency. In our opinion, ETA should continue to evaluate the performance
of these grantees, and the WIA-funded Youth Opportunity operational grantees, to attempt to increase
the number of youths who obtain and maintain employment and increase their annual earnings.




                                                    2
                                           BACKGROUND

The Department of Labor (DOL), Employment and Training Administration (ETA), awarded Job
Training Partnership Act (JTPA), Title IV, Youth Opportunity demonstration grants (referred to as
Kulick grants) to several cities including the three pilot cities whose programs we audited -- Chicago,
Houston, and Los Angeles. While these pilot grants were experimental, the Youth Opportunity
programs were intended to provide a wide range of services to out-of-school youth, ages 16 through
24, in each city’s designated low income neighborhood with the ultimate program goal being increased
youths’ employment and earnings.

These three demonstration grants were intended to provide for early implementation of, and assist in
developing guidelines for transition to, the Youth Opportunity program under the new Workforce
Investment Act (WIA). ETA acknowledged that the Youth Opportunity pilot sites’ efforts are very
much learning laboratories; i.e., the purpose of these pilot sites is to learn from them so that ETA can
avoid problems in implementing the larger youth initiative.

These Youth Opportunity grants’ statements of work provided: The purpose of this grant is to
conduct a demonstration for a comprehensive approach aimed at improving the labor market
prospects of out-of-school youth in high-poverty areas. Priority was to be given to high school
dropouts. The primary goal was to focus initiatives on getting out-of-school youth ages 16 through 24
into long-term employment at earnings levels that would prevent future dependency.

In 1996, the three cities were initially awarded funds for 18 months. However, ETA modified all three
grants extending the program. The grant periods were as follows:

        !       Chicago                  June 28, 1996, through June 30, 2000
        !       Houston                  June 28, 1996, through December 31, 1999
        !       Los Angeles              June 28, 1996, through December 31, 2000

On March 22, 2000, we issued final audit report number 06-00-002-03-340, “Audit Findings from
First 18 Months of the Three Kulick Youth Opportunity Pilot Sites Suggest Additional Innovation
Is Needed For Youth Training Undertaken With JTPA Demonstration Grant Funds.” That report
represented a snapshot in the early stages of these Youth Opportunity pilot sites that ETA considered a
learning process.

One of our findings from our initial report indicated the program should aim toward having a
greater impact on earnings. ETA commented on the experimental nature of these pilot grants and the
lessons learned from them and indicated the three sites included in our audit have improved since the
period we examined.




                                                     3
Because our previous audit looked at earnings for such an early period -- April 1, 1998, through
March 31, 1999 -- we did an earnings followup for a subsequent 12-month period to determine
whether youths’ earnings increased or decreased in the year after our initial evaluation.
The earnings analysis from the initial report was for only 105 randomly selected participants from a
universe of 1,865 participants. In addition to some data presented in the initial report, this followup
report shows employment and earnings data for:

         !        105 participants included in our original sample. We performed additional analyses of
                  employment and earnings of these participants for the period
                  April 1, 1999, through March 31, 2000 -- the 12-month period subsequent to our first
                  12-month evaluation period, and

         !        1,8511 total participants -- including the 105 sample participants -- the three pilot sites
                  enrolled through September 30, 1998. These participants’ employment and earnings
                  were analyzed for the period January 1, 1999, through December 31, 1999.




         1
           There were 1,865 participants enrolled through September 30, 1998. However, we could not evaluate the
earnings for 14 participants because we were unable to obtain good social security numbers for those participants.
All subsequent report references to the participant universe or total participants refer to the 1,851 participants for
whom we had social security numbers.

                                                           4
                         OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this followup audit is to provide DOL management with additional independent
information regarding program results from these Kulick pilot demonstration grants. Because
participants are not terminated from these grants until the grants expire, we could not evaluate the
effectiveness of the grantees’ services by looking at post-program employment and earnings.
Consequently, we evaluated the three programs’ effectiveness by analyzing another year of participants’
earnings for the original sample of 105 participants and by analyzing calendar year 1999 earnings for all
participants these three pilot grantees enrolled through September 30, 1998.
Using wage history files maintained by the State Employment Security Agencies, we evaluated earnings
as follows:

        !       For the 105 participants included in our original sample, we performed some of the
                same earnings evaluations as we did in our initial audit (April 1, 1998, through March
                31, 1999) for the period April 1, 1999, through March 1, 2000 -- the 12-month period
                subsequent to our first audit evaluation period. We then compared the earnings
                outcomes for the followup audit period to those of the initial audit period.

        !       For the 1,851 total participant universe the three pilot sites enrolled through September
                30, 1998, we evaluated earnings for the period January 1, 1999, through December
                31, 1999.

Our audit was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States.




                                                    5
                                    FOLLOWUP AUDIT RESULTS

Our initial audit found that even though these three SDAs’ Kulick grant programs were still ongoing
during our audit, and all participants are still considered enrolled until the grants terminate, the 105
sampled participants’ annual earnings were generally low and almost half of the participants had no
earnings in the last quarter for which we evaluated earnings. ETA provided their insights as to why
earnings were low and why participants did not have earnings in the last quarter we evaluated.
Examples include:

        !       Our evaluation period included a time period before some were enrolled.

        !       These youths are from high poverty areas; consequently, employment and earnings are
                expected to be lower than for participants in traditional job training programs.

        !       The last quarter of earnings we evaluated was a time period when youth may have been
                in school.

While we do not disagree with ETA’s comments, as we pointed out in our prior report, 74 percent of
the sample we evaluated had some earnings; consequently, most were working at some point during the
12-month period for which we evaluated earnings.

As we also pointed out in our prior report, the OIG realizes that these pilot demonstrations were a
learning experience, and that youth from these high poverty neighborhoods are not expected to
immediately attain self-sufficiency. However, we analyzed reported earnings for these participants to
attempt to determine what effects the program had on the participants’ earnings capacities. While
earnings self-sufficiency may not be an immediate goal of the program, the ultimate goal is increased
earnings. Our presentations of participants’ earnings in the prior report were not intended to indicate
that the program has not helped the impoverished youth, but were presented as facts at the time of our
evaluation.

Because our initial audit of the Kulick program’s outcomes was early in the grantees’ performance
periods, we performed a followup audit to determine the sampled participants’ earnings capacities in
the 12-month period subsequent to our initial audit. We have also evaluated calendar year 1999
earnings for the 1,851 participant universe these three Kulick pilot grantees enrolled as of September
30, 1998.




                                                     6
1.        Participants’ Annual Earnings for the Followup Period Compared to the Initial Audit
          Period.

Tables 1 through 3 present participants’ earnings results for:

          K         105 participant sample for initial audit period (April 1, 1998, through March 31, 1999)
                    and followup audit period (April 1, 1999, through March 31, 2000).

          K         1,851 participant universe earnings results for the calendar year January 1, 1999,
                    through December 31, 1999.

Table 1 presents an overall summary of earnings data for the 105 sample (both initial and followup
audit) and 1,851 participant universe (for followup audit).

                                                   Table 1
                              Summary Comparison of Participants’ Earnings
                         105 Participant Sample (for Initial and Followup Audit) and
                              1,851 Participant Universe (for Followup Audit)

                             Cumulative Percentage of Participants
                                      by Earnings Range                 Cumulative Average Earnings2

                              105           105            1,851        105           105        1,851
      Earnings Range        Sample        Sample         Universe      Sample       Sample      Universe
                            Initial      Followup     Followup Audit   Initial     Followup     Followup
                             Audit         Audit                        Audit        Audit       Audit


              $0             25.7%           31.4%        29.2%

        $1 - $999            43.8%           47.6%        43.9%             $393        $471        $424

      $1,000 - $1,999        53.3%           50.5%        52.5%             $726        $581        $804

      $2,000 - $3,999        66.6%           63.8%        64.6%           $1,448       $1,688      $1,541

      $4,000 - $5,999        80.9%           77.1%        72.9%           $2,323       $2,622      $2,187

      $6,000 - $7,999        90.4%           82.8%        79.9%           $3,034       $3,108      $2,856

      $8,000 - $9,999        92.4%           86.6%        84.4%           $3,217       $3,510      $3,367

     $10,000 - $11,999       96.2%           93.3%        88.2%           $3,634       $4,381      $3,863

     $12,000 and above      100.0%          100.0%        100.0%          $4,217       $5,482      $5,982



          2
              Only computed for those participants who had earnings.

                                                          7
As table 1 shows, our comparison of 12-months’ subsequent earnings to our initial audit’s earnings
results for the 105 participant sample disclosed:

        K        The percentage of participants with $0 earnings increased from 25.7 percent to 31.4
                 percent.

        K        The percentage of participants with $0 earnings or whose annual earnings were less
                 than $4,000 decreased from 66.6 percent to 63.8 percent. The average annual
                 earnings for the participants in this group who had earnings increased from $1,448 to
                 $1,688.

        K        The overall average earnings increased from $4,217 to $5,482.

Table 2 presents the complete annual earnings results for the initial and followup audits for the 105
participant sample.


                                              Table 2
                    105 Sample Participants’ Earnings for the Initial Audit Period
                      Compared to the Earnings for the Followup Audit Period
                               (April 1998 Through March 1999 and
                                 April 1999 Through March 2000)
                          Number              Cumulative                                 Cumulative
    Earnings                  of               Percent of           Average               Average
     Range               Participants         Participants          Earnings              Earnings
                       Initia   Followup   Initial   Followup   Initial   Followup    Initial   Followup
                         l

        $0              27        33       25.7%      31.4%

     $1 - $999          19        17       43.8%      47.6%        $393        $471     $393        $471

  $1,000 - $1,999       10         3       53.3%      50.5%      $1,359      $1,202     $726        $581

  $2,000 - $3,999       14        14       66.6%      63.8%      $2,943      $3,269   $1,448      $1,688

  $4,000 - $5,999       15        14       80.9%      77.1%      $4,830      $4,904   $2,323      $2,622

  $6,000 - $7,999       10         6       90.4%      82.8%      $7,161      $7,002   $3,034      $3,108

  $8,000 - $9,999        2         4       92.4%      86.6%      $9,435      $8,938   $3,217      $3,510

     $10,000 -           4         7       96.2%      93.3%     $10,922     $11,598   $3,634      $4,381
      $11,999




                                                      8
    $12,000 and         4         7       100.0%    100.0%       $15,004      $15,701    $4,217   $5,482
       above


While the number of participants with no reported earnings increased from 27 to 33, a 6 percent
increase for the total participant sample, the number of participants who earned $8,000 or more
increased from 10 to18, an 8 percent increase for the total 105 participant sample. Furthermore, of
those participants with earnings, those with earnings over $8,000 increased from 13 percent (10 of 78)
to 25 percent (18 of 72).

Table 3 shows our analysis of calendar year 1999 earnings for all 1,851 participants enrolled as of
September 30, 1998.

                                              Table 3
            Universe of 1,851 of Participants’ Earnings for the Followup Audit Period
                             January 1999 Through December 1999


                                                   Cumulative                               Cumulative
                                  Number of         Percent of             Average           Average
      Earnings Range              Participants     Participants            Earnings          Earnings
              $0                             541             29.2%

            $1 - $999                        273             43.9%                $424                $424

        $1,000 - $1,999                      159             52.5%              $1,456                $804

        $2,000 - $3,999                      224             64.6%              $2,962              $1,541

        $4,000 - $5,999                      153             72.9%              $4,956              $2,187

        $6,000 - $7,999                      129             79.9%              $7,056              $2,856

        $8,000 - $9,999                       84             84.4%              $9,073              $3,367

       $10,000 - $11,999                      71             88.2%             $10,990              $3,863

       $12,000 and above                     217             100.0%            $16,656              $5,982


Our analysis disclosed:

        K         29.2 percent (541 participants) had $0 annual earnings. This percentage of participants
                  with no reported earnings is comparable to both the 105 participant sample results for
                  both the initial audit (25.7 percent) and followup audit (31.4 percent).

        K         64.6 percent (1,197 participants) had $0 earnings or annual earnings of less than
                  $4,000. This percentage is also comparable to the 105 participant sample results for

                                                     9
                both the initial audit (66.6 percent) and followup audit (63.8 percent). The average
                annual earnings for participants in this group who had earnings was $1,541. These
                earnings are higher than the 105 participant sample results for this same earnings range
                group for the initial audit ($1,448) but lower than the 105 sample results for the
                followup audit ($1,688).

        K       The overall average earnings for the 1,310 participants with earnings were $5,982.
                These earnings are higher than the $4,217 average earnings of the 78 participants who
                had earnings out of the105 participants in the initial audit earnings evaluation period and
                higher than the $5,482 average earnings of the 72 participants who had earnings out of
                the105 participants in the followup audit.


2.      Changes in Earnings Capacity for Specific Participants.

In comparing results between the initial and followup audits, we not only looked for changes in the total
numbers/percentages of participants in various earnings ranges between the two periods, but we also
analyzed the specific earnings changes of the 105 sampled enrollees as follows:

        K       those with no earnings in either the initial or followup audit,
        K       those with no earnings in the initial audit but had earnings in followup audit,
        K       those with earnings in the initial audit but no earnings in the followup audit, and
        K       those with earnings in both the initial and followup audit.

The following chart shows the outcomes of these analyses while table 4 shows the specific details of
participant movement by earnings ranges.



                                             Did Participants Have Earnings in Followup Audit Period?

                                                    YES                                    NO
 Participants Who Had No Earnings
 in Initial Audit Period (27)                    11 (11%)                             16 (15%)

 Participants Who Had Earnings in
 Initial Audit Period   (78)                     62 (59%)                             16   (15%)



Table 4 on the next page shows the changes in earnings ranges for the 105 participant sample
from the initial audit to the followup audit periods by showing the movement of specific participants
from one earnings range to another. The shaded boxes indicate participants whose reported earnings
range did not change between the initial and followup audit periods. Above the shaded area represents

                                                    10
those participants with earnings increases; conversely, below the shaded area represents participants
with earnings decreases.


                                                                                  Table 4
                                                              Changes in Participants’ Earnings Between the
                                                                   Initial and Followup Audit Periods
                                                                         105 Participant Sample
                                                                            Earnings for Followup Audit Period
                                Earnings        No         Under        $1,000-       $2,000-       $4,000-       $6,000-       $8,000-       $10,000-    Over         Initial
                                Ranges         Wages       $1,000       $1,999        $3,999        $5,999        $7,999        $9,999        $11,999    $12,000       Audit
                                                                                                                                                                       Totals

                                No Wages            16              6                           4                           1                                                    27
                                Under
                                $1,000                 6            5             3             2             2             1                                                    19
                                $1,000-
Earnings Initial Audit Period




                                $1,999                 3            1                           1             2                                      2             1             10
                                $2,000-
                                $3,999                 3            3                           5                                         1          1             1             14
                                $4,000-
                                $5,999                 1            2                           1             5             3                        2             1             15
                                $6,000-
                                $7,999                 2                                                      3             1             2                        2             10
                                $8,000-
                                $9,999                 1                                                                                  1                                       2
                                $10,000-
                                $11,999                1                                        1             1                                      1                            4
                                $12,000 and
                                over                                                                          1                                      1             2              4
                                Followup
                                Audit
                                Totals              33          17                3         14            14                6             4          7             7        105




An analysis of the changes for the105 participant sample for the followup audit is presented below:

                                    K         36 participants’ (34 percent) earnings showed no significant increase or decrease
                                              between the two periods (shaded area);

                                    K         31 participants’ (30 percent) earnings decreased (below shaded area); and

                                    K         38 participants’ (36 percent) earnings increased (above shaded area).




                                                                                           11
3.         Earnings by Age at Enrollment.

We were able to analyze age at time of enrollment for only 1,464 of the 1,851 participant universe
because we had participants’ age for only two of the three pilot grantees. Age information for these
1,464 participants and their earnings ranges by age are presented below.

                                                       Table 5
                                             Ages of Participant Universe

                         Age Ranges                            Number of                      Percentage of
                                                               Participants                    Participants

                              14 - 17                                             259                         18%

                              18 - 19                                             565                         39%

                              20 - 21                                             382                         26%

                              22 - 23                                             195                         13%

                         24 and over                                              63                             4%

                               Total                                          1,464                         100%


                                                   Table 6
                 Participants’ Earnings for 1,464 Participant Universe (for Followup Audit)
                                  For Which We Had Participants’ Age


                                                              Age Ranges
     Earnings Range
                             14 - 17        18 -19        20 -21         22 -23             24 +         Total

                         #         %    #        %    #        %     #        %         #      %     #           %

            $0           10       40%   13      24%   86      23%    56       29%       1     27%    399      27%
                          3              7                                              7

        $1 - $999        43       17%   88      16%   49      13%    24       12%       1     22%    218      15%
                                                                                        4

      $1,000 - $1,999    32       12%   47       8%   24       6%    12        6%       4      6%    119         8%

      $2,000 - $3,999    27       10%   68      12%   55      14%    23       12%       4      6%    177      12%

      $4,000 - $5,999    21        8%   52       9%   34       9%    16        8%       7     11%    130         9%

      $6,000 - $7,999    10        4%   44       8%   33       9%    16        8%       3      5%    106         7%

      $8,000 - $9,999    11        4%   29       5%   20       5%        8     4%       1      2%     69         5%

     $10,000 - $11,999    3        1%   36       6%   13       3%        7     4%       4      6%     63         4%



                                                              12
 $12,000 and above     9    3%    64   11%      68   18%       33   17%   9    14%    183   13%

       Totals         25    100   56    100     38   100       19   100   6    100   1,46   100
                       9      %    5      %      2     %        5     %   3      %      4     %

4.      Participants’ Attachment to the Labor Market.

In our initial audit we reported that, while 74 percent of the sampled participants had been employed at
some point during the 12-month period April 1, 1998, through March 31, 1999, only 51 percent had
reported earnings during the last of the four quarters of earnings we analyzed.

ETA responded to our initial report that it is to be expected that the proportion of participants
employed in any given quarter will be lower than the proportion employed in a given year because the
longer the time period, the more time an individual has to be employed. ETA also responded that youth
attending high schools, alternative high schools, or college may not have had earnings during this period
-- January 1 to March 31, 1999 -- a period of time when those attending school would be in school.
We do not disagree with ETA’s responses.

However, while our initial report showed that 35 percent of the participants attended high school,
alternative school, or college, it was unclear from the enrollees’ files how long they continued in these
activities; i.e., some may not have been actively attending school but could have been working during
enrollment. Others of those attending school could also have been working while attending school.
Consequently, we still consider continuity of earnings as one measure of attachment to the labor force.

        A.       Participants with earnings in the last quarter we analyzed.

We determined the following number/percentage of participants had earnings in the indicated quarters
for the 105 participant sample.

        Initial audit (74 percent had earnings)            Followup Audit (69 percent had earnings)

        !    49 (47%) in the 2nd quarter 1998              !    51 (49%) in the 2nd quarter 1999
        !    56 (53%) in the 3rd quarter 1998              !    53 (50%) in the 3rd quarter 1999
        !    62 (59%) in the 4th quarter 1998              !    59 (56 %) in the 4th quarter 1999
        !    54 (51%) in the 1st quarter 1999              !    47 (45 %) in the 1st quarter 2000

While we realize that we are evaluating the earnings of youth from impoverished areas, the
Youth Opportunity program’s ultimate intent is to increase these youth’s employment and earnings. As
a measure of program accomplishment, one would also expect continuity of employment to increase as
time passes. As shown above, for the 105 participant sample in the initial audit, the number of
participants employed did increase in every quarter but the last in which the number employed
decreased. In the followup audit for these same 105 participants, the trend was the same. In fact, the
percentage of youth working in the last quarter of the evaluation period decreased from 51 percent in

                                                     13
the first year to 45 percent in the second year.




                                                   14
For the 1,851 participant universe, 71 percent (1,310) had earnings at some time during the followup
audit period. Of the participant universe, the following number/percentage of participants had earnings
in the indicated quarters:

                        !          849 (46%) in the 1st quarter 1999
                        !          914 (49%) in the 2nd quarter 1999
                        !          962 (52%) in the 3rd quarter 1999
                        !          999 (54%) in the 4th quarter 1999

Unlike the 105 sample initial and followup audit results -- where the number of participants employed in
the last quarters decreased -- for the 1,851 participant universe, the number of participants with
earnings increased in all quarters.

        B.      Participants’ quarterly earnings for the last quarter evaluated.

While the number/percentage of participants with earnings in the last quarter evaluated -- as shown in
finding A above -- is an indicator of continuity of employment, it is incomplete without an analysis of the
earnings in that quarter; i.e., $1 in earnings would give one earnings in the quarter, but would not
indicate substantial employment. Consequently, we also examined continuity of employment by
examining reported earnings. Table 7 shows details for the 54 sampled participants with quarterly
earnings in the first quarter 1999 (initial audit) and 47 sampled participants with quarterly earnings in
the first quarter 2000 (followup audit), the last quarters of earnings analyzed for the respective audit
periods.

                                           Table 7
             Sample Participants With Earnings For the First Quarters 1999 and 2000

                  Quarterly Earnings           Number of Participants                 Percentage

                                              1 st qtr 1999   1 st qtr 2000   1 st qtr 1999   1 st qtr 2000

                      $1 to $499                        18              11            33%             23%

                     $500 to $999                        3               2             6%              4%

                   $1,000 to $1,999                     18              11            33%             23%

                   $2,000 to $2,999                      8               7            15%             15%

                   $3,000 to $3,999                      4               9             7%             19%

                   $4,000 to $4,999                      1               5             2%             11%

                   $5,000 to $5,999                      2               1             4%              2%

                     Over $6,000                                         1             0%              2%


                                                      15
                        Total                        54                47        100%       100%
Table 8 shows quarterly earnings for the 999 participants in the universe who had earnings for the last
quarter of 1999, the last of four quarters analyzed for the participant universe.


                                              Table 8
                            Universe of 999 Participants With Earnings
                                     For the 4th Quarter 1999

                                Quarterly           Number of           Percentage
                                Earnings           Participants         of Universe

                                $1 to $499                    190               19%

                                $500 to $999                  120               12%

                           $1,000 to $1,999                   173               17%

                           $2,000 to $2,999                   176               18%

                           $3,000 to $3,999                   132               13%

                           $4,000 to $4,999                   108               11%

                           $5,000 to $5,999                       50             5%

                                Over $6,000                       50             5%

                                   Total                      999              100%


While approximately half of the participants had no earnings in the last quarter of our evaluation period
(49 percent initial audit sample; 55 percent followup audit sample; 46 percent universe), it appears that
the earnings for those who did have earnings in the last quarter increased, both for the sample and
universe. As table 7 shows, for those with earnings in the quarter, the percentage with quarterly
earnings over $2,000 increased from 28 percent from the initial audit sample to 49 percent for the
followup audit sample. Table 8 shows that 52 percent of those in the universe with earnings had
quarterly earnings over $2,000.

        C.      Number of employers participants had during evaluation period.

In our opinion, another measure of attachment to the labor market is the number of employers these
youths had in a 12-month period. While we realize that these participants are youths and are probably
apt to change jobs more often than adults, these youths are from impoverished areas where the
unemployment rate among youths is extremely high; consequently, one would assume that employment
opportunities for these youths are limited.


                                                   16
Consequently, we also evaluated for the followup period, both for the 105 sample and the 1,851
participant universe, the number of employers the participants had during the four quarters of earnings
we evaluated. Table 9 displays the results of that analysis.




                                                   17
                                                  Table 9
                             Number of Different Employers Participants Had
                              During the Four Quarters of Earnings Analyzed
                                      For the Followup Audit Periods

                                                          Followup Audit Group Analyzed

            Number of Employers           105 Participant Sample              1,851 Participant Universe

                                       Number             Percentage3         Number           Percentage4

                    0                           33                                     541

                    1                           29                 40%                 569             44%

                    2                           21                 29%                 363             28%

                    3                            9                 13%                 202             15%

                    4                            7                 10%                 102                 8%

                    5                            5                  7%                    43               3%

                    6                            1                  1%                    16               1%

                 7 or more                                                                15               1%

                   Total                        105                100%               1,851           100%


For the participant sample, of those with earnings, 82 percent had 3 or fewer employers; for the
participant universe, 87 percent had 3 or fewer employers.

For additional information purposes, we also analyzed the number of employers these youth had by the
youths’ ages at enrollment, for those participants for whom we had age. Table 10 presents the
information for the sample; table 11, for the participant universe




        3
         Based on the 72 participants who had earnings.

        4
         Based on the 1,310 participants who had earnings.

                                                      18
                                             Table 10
                            Number of Employers Participants Had
                   for 85 of the 105 Participant Sample (for Followup Audit)
                              For Which We Had Participants Age


Number of                                                          Age Ranges
Employers
                       14 - 17             18 -19               20 -21              22 -23               24 +              Total

                   #        %         #        %           #        %          #          %          #       %         #          %

   0               6       50%         1      37%           1        5%         4       31%                   0%       2          29%
                                       4                                                                               5

   1               1        8%         6      16%           1      48%          5       38%          1       100       2          27%
                                                            0                                                  %       3

   2               1        8%         1      29%           3      14%          2       15%                   0%       1          20%
                                       1                                                                               7

   3               1        8%         3        8%          2      10%          1         8%                  0%       7          8%

   4               2       17%         2        5%          2      10%          1         8%                  0%       7          8%

   5               1        8%         1        3%          3      14%                    0%                  0%       5          6%

   6                        0%         1        3%                   0%                   0%                  0%       1          1%

 Totals            1        100        3       100          2       100         1         100        1       100       8          100
                   2          %        8         %          1         %         3           %                  %       5            %




                                               Table 11
                               Number of Employers Participants Had
                         for 1,461 Participant Universe (for Followup Audit)
                                For Which We Had Participants Age


       Number of                                                                    Age Ranges
       Employers
                                 14 - 17                18 -19               20 -21                 22 -23                 24 +             Total

                            #          %            #                    #          %           #         %        #          %         #           %

            0               10        40%           13      24%          86         23%         56       29%       1         27%        399     27%
                             3                       7                                                             7

            1               75        29%           18      32%          11         31%         54       28%       2         41%        453     31%
                                                     0                    8                                        6

            2               39        15%           12      23%          74         19%         41       21%       8         13%        290     20%
                                                     8




                                                                         19
                 3            23   9%    66      12%    55    14%     18      9%       6   10%   168    11%

                 4            14   5%    27      5%     34     9%     10      5%       2   3%     87    6%

                 5             5   2%    14      2%      8     2%      8      4%       2   3%     37    3%

                 6                 0%        5   1%      5     1%      4      2%       1   2%     15    1%

             7 or more             0%        8   1%      2     1%      4      2%       1   2%     15    1%

              Totals          25   100   56      100    38     100    19     100       6   100   1,46   100
                               9     %    5        %     2       %     5       %       3     %      4     %



        D.           Number of quarters in which participants had earnings.

Finally, the last measure of labor market attachment we attempted to analyze was the number of
quarters in which the participants had earnings during our followup audit evaluation periods for both the
sample (table 12) and the participant universe (table 13).

                                               Table 12
                            Number of Quarters of Earnings Participants Had
                                for 72 of the 105 Participant Sample
                                         Who Had Earnings

                                                          72 Participants with
                                                               Earnings
                                    Number of
                                     Earnings          Number of       Percentage
                                     Quarters          Participant         of
                                                            s         Participants

                                         1                      12               17%

                                         2                      11               15%

                                         3                      20               28%

                                         4                      29               40%




                                                Table 13
                            Number of Quarters of Earnings Participants Had
                              for 1,310 of the 1,851 Participant Universe
                                          Who Had Earnings

                                                         1,310 Participants with
                                                                Earnings
                                    Number of
                                     Earnings
                                     Quarters


                                                        20
                                                  Number of      Percentage
                                                  Participant        of
                                                       s        Participants

                                      1                  235            18%

                                      2                  277            21%

                                      3                  257            20%

                                      4                  541            41%




As tables 12 and 13 show, of those participants who had earnings: 68 percent of the sample had
earnings in more than two quarters; for the participant universe, 61 percent. Forty (40) percent of both
groups had wages in all four quarters.




                                                   21
